                                     SENSITIVE INFORMATION




Memorandum from the Office of the Inspector General



November 1, 2005

Randy P. Trusley, WT 5C-K

AUDIT REPORT 2005-057F – REVIEW OF CONTROLS OVER TENNESSEE VALLEY
AUTHORITY’S (TVA) ASSET RETIREMENT OBLIGATION BALANCES



As part of our annual audit plan, we audited the asset retirement obligation (ARO)
controls relied on by management to ensure the ARO balances in the TVA financial
statements are accurate and complete.

Effective October 1, 2002, TVA adopted Financial Accounting Standards Board
Statement No.143 (FAS 143), Accounting for Asset Retirement Obligations. This
statement requires, among other things, the recognition of a liability for “legal
obligations” associated with the retirement of long-lived assets resulting from the
acquisition, construction, development, and/or normal operation of long-lived assets.

As of June 30, 2005, the balance in the ARO approximated $1.8 billion and consisted
primarily of the estimated costs to decommission the nuclear and fossil plants at the end
of their useful life. Controls over the balance in this and other related ARO accounts
included quarterly reconciliations of the general ledger balances and underlying support
for the cost estimates maintained in a worksheet format for each plant. We tested the
reconciliations and determined the controls over the ARO process were operating
effectively to ensure balances were accurately stated, in all material respects, in TVA’s
June 30, 2005, financial statements. Our objectives, scope, and methodology are
attached.

Information contained in this report may be subject to public disclosure. Please advise
us of any sensitive information in this report which you recommend be withheld.

No response to this report is necessary. If you have questions, please call David S.
Shields, Auditor, at (865) 632-3354 or Louise B. Beck, Manager, Financial and
Operational Audits, at (865) 632-2622. We appreciate the courtesy and cooperation
received from your staff during the audit.



Ben R. Wagner
Assistant Inspector General
 (Audits and Inspections)
ET 3C-K

DSS:SDB
cc: See page 2
                            SENSITIVE INFORMATION


Randy P. Trusley
Page 2
November 1, 2005



cc (Attachment):
     R. Don Holden, WT 5C-K
     Andrew W. Holmes, WT 5C-K
     Tom D. Kilgore, ET 12A-K
     Richard W. Moore, ET 4C-K
     Michael E. Rescoe, ET 12A-K
     Ellen Robinson, ET 12A-K
     OIG File No. 2005-057F




                            SENSITIVE INFORMATION
                                SENSITIVE INFORMATION

                                                                          ATTACHMENT
                                                                             Page 1 of 1


                   OBJECTIVE, SCOPE, AND METHODOLOGY

Our objective was to test controls relied on by management to ensure asset retirement
obligation (ARO) balances in Tennessee Valley Authority’s (TVA) financial statements
are accurate and complete. The scope of the audit addressed controls in place as of
June 30, 2005. The audit did not address the accuracy or reasonableness of the
estimated costs to retire the long-lived assets or the discount rate used to account for
the obligation under FAS 143.

We assessed the controls by:

x   Interviewing employees in the Chief Financial Officer’s Organization.
x   Reviewing a draft of TVA accounting white paper – Asset Retirement Obligations
    (SFAS #143).
x   Reviewing Statement of Financial Accounting Standards No. 71 and 143.
x   Tracing amounts in the reconciliation to the general ledger and supporting
    worksheets for the retirement of long-lived assets associated with the fossil plants,
    combustion turbines, Bellefonte diesel generator, and nuclear plants.
x   Verifying the mathematical accuracy of the worksheets supporting the reconciliation.

This audit was performed in accordance with generally accepted government auditing
standards. Although we did not test for compliance with laws and regulations, nothing
came to our attention during the audit that indicated noncompliance with applicable laws
or regulations.




                                SENSITIVE INFORMATION
